fT

C@QCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga | Briefs contact@cocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-792
VUGO, INC.,
Petitioner,
v.
CITY OF NEW YORK,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
GOLDWATER INSTITUTE AND CATO INSTITUTE IN SUPPORT OF PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 4259 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 2 Ist day of January, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
‘State of Nebraska . ,
My Commission Expires Nov 24, 2020 ¢

Notary Public Affiant

 

39342
